                    NATIONAL ENDOWMENT FOR THE ARTS
                    OFFICE OF INSPECTOR GENERAL




      FINANCIAL MANAGEMENT SYSTEM &
          COMPLIANCE EVALUATION

                                          OF THE

                      TRICKLOCK COMPANY
                                   Albuquerque, NM


                             REPORT NO. SCE-09-02

                                     October 6, 2008



                           REPORT RELEASE RESTRICTION
This report may not be released to anyone outside of the National Endowment for the Arts (NEA)
without the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public.

Furthermore, information contained in this report should not be used for purposes other than those
intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                               INTRODUCTION

BACKGROUND

The Tricklock Company (Company) is an international theatre organization. Founded in
1993, its mission is to create, tour, and produce theatrical performances as a permanent
resident company committed to artistic risk, physicality, absurdism, and poetic work.


OBJECTIVE AND SCOPE

The objective of this financial management system and compliance evaluation by the
National Endowment for the Arts (NEA) Office of Inspector General (OIG) is to
determine whether the organization’s financial management system and recordkeeping
complies with the requirements established by the Office of Management and Budget
(OMB) and NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations (General Terms). The evaluation was conducted in
accordance with the President’s Council on Integrity and Efficiency Quality Standards
for Inspections, as applicable.



PRIOR AUDIT COVERAGE

During the past five years, the NEA Office of Inspector General has not issued any audit
reports on Federal grants awarded to the Company. During our site visit on July 30,
2008, the Company advised us that the most recent independent auditor’s report was
issued in 2002. However, they could not provide us with a copy. We were further
informed that an independent audit will be performed in 2008. The Company was able to
provide us with an unaudited balance sheet, as of March 31, 2008. We also reviewed the
Company’s 2007 IRS Form 990 and found no issues regarding Federal grants. The
Company was not to subject to the audit requirements of OMB Circular A-133.



                      RESULTS OF EVALUATION
Our evaluation concluded that the Company inaccurately reported expenditures on its
Financial Status Report (FSR). In addition, the Company did not retain proper
documentation for some expenses, which resulted in questioned or unallowable costs
totaling $6,680. The Company also did not have the required Section 504 self-evaluation
on file. Details are presented in the following narrative.




                                           2
FINANCIAL MANAGEMENT

For selected Grant No. 06-3200-7202, the Company inaccurately reported project
expenditures of $100,330 on its FSR. During our site visit, we were presented with a
listing of project expenditures that totaled $90,645. The NEA instructions for
completing the FSR state that “total actual project outlays” are to be reported.

Our review also revealed several thousand dollars of grant costs that were questionable or
unallowable. Specifically, the following costs were disallowed or questioned:

         Unallowable Costs - $4,047 of costs charged to the grant were for donor relations
         (fundraising activities), which are not allowable under OMB Circular A-122.
         According to OMB Circular A-122, costs of fundraising activities and any costs
         directly associated with such costs are unallowable.

         Questioned Costs – $2,633 of costs charged to the grant were questioned due to
         lack of adequate support. Specifically, the Company could not provide invoices
         or documentation for some expenses, which included public relations, space rental
         and air/ground delivery services. The NEA Instructions for Record Retention
         state:

                  “You must maintain financial records, supporting documents (such as cancelled
                  checks, invoices, contracts, travel reports, donor letters, in-kind contribution
                  reports, and personnel activity reports), statistical records, and all other records
                  pertinent to an award consistent with the provisions outlined in OMB Circular A-
                  110, Section 53, or the “Common Rule” Section 1157.42, as applicable. Generally,
                  the retention period is three years from the date the final Financial Report is filed.”

Based on the findings above, we are questioning and reducing costs claimed under the
grant by $16,3651, resulting in allowable expenditures of $83,965. Based on allowable
expenditures, the Company has enough costs to meet the matching requirements.
Therefore, no refund would be due the NEA.

For ongoing and future grants, we are recommending that procedures be implemented to
ensure that the Company reports actual “total outlays” on its final FSR and those costs be
adequately supported.

SECTION 504 SELF-EVALUATION

The Company did not have the required Section 504 self-evaluation on file. As noted in
NEA’s General Terms, “A Section 504 self-evaluation must be on file at your
organization.” A Section 504 Self-Evaluation Workbook, which can be completed online,
is available at www.arts.gov/about/504Workbook.html.



1
  This amount reflects the difference in the total outlays reported on the FSR minus the presented
expenditures plus unallowable/questioned costs: $100,330-(90,645+6,680) = 16,365.


                                                     3
We recommended that the Company conduct a Section 504 self-evaluation. The
Company did complete and submit a Section 504 self-evaluation prior to the issuance of
this report. Therefore, no further action on this finding is necessary.

ACCOUNTING PROCEDURES

During our site visit, the Company provided us with a draft copy of its accounting
policies and procedures, which have been submitted to the Board of Directors for
approval. Based on our review, we suggest that the company implement additional
procedures that will further strengthen internal controls. Some possible procedures that
the Company might consider are:

               Ensure that the final bank reconciliation is reviewed by someone other
               than the preparer;
               Designate approval process for contracts under the $10,000 threshold;
               and,
               Limit or eliminate the use of bank cash cards for travel, etc.

Although there is no NEA or OMB requirement for official accounting/financial policies
and procedures, we believe that documenting such guidance is beneficial to the
organization in the event of personnel changes. It can also strengthen internal controls by
establishing segregation of duties in the financial area. The policies and procedures could
also incorporate publications such as the NEA General Terms, NEA’s Financial
Management Guide for Non-profit Organizations, and applicable OMB Circulars.

EXIT CONFERENCE

An exit conference was held with the Company’s officials on July 30, 2008. The
Company’s officials concurred with our findings and recommendations. (As noted, the
Company did complete and submit a Section 504 self-evaluation prior to the issuance of
this report.)

                           RECOMMENDATIONS
We recommend that the Company:

       1. Implement procedures to ensure that expenditures are accurately reported on
          its Financial Status Reports and those amounts are reconcilable to accounting
          records. Those procedures should ensure that the employees, who prepare the
          FSRs, are familiar with the cost principles of OMB Circular A-122.

       2. Implement procedures to ensure that the Company maintains supporting
          documentation for all expenses.




                                            4
                           Unallowable/Questioned Costs

Total Costs Claimed                                       $100,330

       Less: Overstatement of Total Outlays                 (9,685)
       Less: Questioned Public Relations Costs              (1,782)
       Less: Questioned Space Rental Costs                  (1,390)
       Less: Questioned Air/Ground Costs                      (875)
       Less: Unallowable Fundraising Costs                  (2,633)


Total Allowable Costs                                      $83,965




                                          5
